No. 19-7

31u the i§upreme Court of tije Eluiteb *tutus
SEILA LAW LLC, PETITIONER
v.
CONSUMER FINANCIAL PROTECTION BUREAU

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

BRIEF FOR THE STATES OF TEXAS, ARKANSAS,
GEORGIA, INDIANA, KANSAS, LOUISIANA,
NEBRASKA, OKLAHOMA, SOUTH CAROLINA,
TENNESSEE, UTAH, AND WEST VIRGINIA
AS AMICI CURIAE IN SUPPORT OF PETITIONER

KEN PAXTON
Attorney General of Texas
JEFFREY C. MATEER
First Assistant
Attorney General

KYLE D. HAWKINS
Solicitor General
Counsel of Record
OFFICE OF THE
ATTORNEY GENERAL
P.O. Box 12548 (MC 059)
Austin, Texas 78711-2548
kyle.hawkins@oag.texas.gov
(512) 936-1700

QUESTIONS PRESENTED

Whether the vesting of substantial executive authority in the Consumer Financial Protection Bureau, an independent agency led by a single director, violates the
separation of powers.

(I)

TABLE OF CONTENTS

Questions Presented
Table of Authorities
III
Interest of Amici Curiae
1
Introduction
2
Argument
5
I. The CFPB's Structure Violates the
Constitution's Separation of Powers
6
The President Must Retain the Power to
Remove at Will Individuals Who Wield
Executive Power
6
Congress May Restrict the President's
Removal Power As to Independent, MultiHeaded Commissions
9
The CFPB's Structure Unconstitutionally
Vests Unchecked Power in a Single
Director Removable Only for Cause
12
II. This Case Is an Ideal Vehicle to Decide the
CFPB's Lawfulness
14
Conclusion
20

TABLE OF AUTHORITIES

Page
Cases
Bowsher v. Synar,
478 U.S. 714 (1986)
Clinton v. City of New York,
524 U.S. 417 (1998)
Collins v. Mnuchin,
896 F.3d 640 (5th Cir. 2018)
Consumer Fin. Prot. Bureau v. RD
Legal Funding, LLC,
332 F. Supp. 3d 729 (S.D.N.Y. 2018)
Fed. Election Comm'n v. NRA Political
Victory Fund,
6 F.3d 821 (D.C. Cir. 1993)
Free Enter. Fund v. Public Co.
Accounting Oversight Bd.,
561 U.S. 477 (2010)
Ex parte Hennen,
38 U.S. (13 Pet.) 230 (1839)
Humphrey's Ex'r v. United States,
295 U.S. 602 (1935)
Lucia v. Sec. & Exch. Comm'n,
138 S. Ct. 2044 (2018)
Massachusetts v. EPA,
549 U.S. 497 (2007)

8, 16
15
5, 18

18

16-17

passim
8
4, 9, 10, 11
17
1

IV

Metro. Washington Airports Auth. v.
Citizens for Abatement of Aircraft
Noise, Inc.,
501 U.S. 252 (1991)

2

Morrison v. Olson,
487 U.S. 654 (1988)

2, 13, 15

Myers v. United States,
272 U.S. 52 (1926)

7, 8, 9, 14

Nat'l Labor Relations Bd. v. Noel
Canning
573 U.S. 513 (2014)

12

New York v. Fed. Energy Regulatory
Comm'n,
535 U.S. 1 (2002)

18

PHH Corp. v. Consumer Fin. Prot.
Bureau,
881 F.3d 7 (D.C. Cir. 2018)

passim

Printz v. United States,
521 U.S. 898 (1997)

6-7

Ryder v. United States,
515 U.S. 177 (1995)

17

Texas v. United States,
809 F.3d 134 (5th Cir. 2015),

aff'd by equally divided Court,
136 S. Ct. 2271 (2016)

1

Wiener v. United States,
357 U.S. 349 (1958)

11

Youngstown Sheet & Tube Co. v.
Sawyer,
343 U.S. 579 (1952)

15

V
Constitutional Provisions and Statutes
U.S. Const. art. II
§ 1, cl. 1
§3
12 U.S.C.
§ 5491(b)
§ 5491(c)
§ 5491(c)(3)
§ 5511(a)
§ 5511(c)
§ 5512 (b)(1)
§ 5514(b)
§ 5515(b)
§ 5516(c)
§ 5562
§ 5562(c)
§ 5563
§ 5563(a)
§ 5564
Other Authorities
1 ANNALS OF CONG. 463 (1789) (Joseph
Gales ed., 1834)
51 CONG. REC. 10,376 (1914)
3 JOSEPH STORY, COMMENTARIES ON THE
CONSTITUTION OF THE UNITED
STATES § 1414 (1833)
AKHIL REED AMAR, AMERICA'S
CONSTITUTION: A BIOGRAPHY (2005)
Brief for the Respondent in Opposition
State Nat'l Bank of Big Spring u.
Mnuchin,
139 S. Ct. 916 (2018)

6
6
3, 13
3, 13
3
5
6
13
13
13
13
6
13
6
13
6, 13

7
4

7
6

passim

VI
CFPB, http://www.consumerfinance.gov/
(last updated June 4, 2018)
En Banc Supplemental Brief of
Defendant-Appellees Federal
Housing Finance Agency and Joseph
M. Otting at 3,
Collins v. Mnuchin, No. 17-20364
(5th Cir. Jan. 14, 2019)
Enforcement Actions, CFPB,
https://www.consumerfinance.gov/po
licy-compliance/enforcement/actions/
(last visited July 23, 2019)
Kirti Datla & Richard Revesz,
Deconstructing Independent Agencies
(and Executive Agencies), 98
CORNELL L. REV. 769, 794 (2013)
Neomi Rao, Removal: Necessary and
Sufficient for Presidential Control,
65 ALA. L. REV. 1205 (2014)
S. REP. 111-176 (2010)
SENATE COMMITTEE ON GOVERNMENTAL
AFFAIRS, STUDY ON FEDERAL
REGULATIONS, S. DOC. No. 95-91, vol.
5 (1977)
THE FEDERALIST No. 47 (C. Rossiter ed.
1961)
THE FEDERALIST No. 70 (J. Cooke ed.
1961)

17

3

17

12

7
15

4
15
9

INTEREST OF AMICI CURIAE
Amici curiae are the States of Texas, Arkansas, Georgia, Indiana, Kansas, Louisiana, Nebraska, Oklahoma,
South Carolina, Tennessee, Utah, and West Virginia.1 As
this Court has long recognized, States have "special solicitude" to challenge unlawful federal Executive Branch
actions. Massachusetts v. EPA, 549 U.S. 497, 520 (2007).
Such solicitude is necessary because States, whose law
may be preempted by federal agencies run amok, stand
in a unique position to guard "the public interest in protecting separation of powers by curtailing unlawful executive action." Texas v. United States, 809 F.3d 134, 187
(5th Cir. 2015), aff'd by equally divided Court, 136 S. Ct.
2271 (2016) (per curiam).
In this case, the Consumer Financial Protection Bureau (CFPB) has wielded its unchecked power to compel
Seila Law LLC, a private law firm, to provide information as part of an investigation into whether Seila Law
has violated the Telemarketing Sales Rule, 16 C.F.R. pt.
310, while providing debt-relief services to its clients.
States enforce robust consumer protections, including
limitations on unfair trade practices and law firms' marketing activities. If Congress wishes to permit federal
agencies to assist or preempt States in protecting consumers and policing deceptive trade practices, it must do

No counsel for any party authored this brief, in whole or in
part. No person or entity other than amici contributed monetarily to its preparation or submission.
1

(1)

2
so in a manner consistent with Article II of the Constitution. For the reasons set out below, the CFPB's structure violates the Constitution.
INTRODUCTION
I. The "ultimate purpose" of our Constitution's separation of powers "is to protect the liberty and security of
the governed." Metro. Washington Airports Auth. v. Citizens for Abatement of Aircraft Noise, Inc., 501 U.S. 252,
272 (1991). That is why the Framers "viewed the principle of separation of powers as the absolutely central
guarantee of a just Government." Morrison v. Olson, 487
U.S. 654, 697 (1988) (Scalia, J., dissenting). This case
calls upon the Court to vindicate that principle by striking down the unlawful action of an administrative agency
built around a single unaccountable and unchecked administrator.
That agency—the CFPB—was created in 2010 under
the Dodd-Frank Act. The Act "transfers to the Bureau
much of the authority to regulate consumer financial
products and services that had been vested in other federal agencies." Brief for the Respondent in Opposition at
2, State Nat'l Bank of Big Spring v. Mnuchin, 139 S. Ct.
916 (2018) (No. 18-307) [hereinafter "State Nat'l BIO"].
Unlike the federal agencies the CFPB replaced, however, the CFPB is headed neither by a group of commissioners nor by an individual who is removable at will by
the President. Instead, the CFPB is headed by a single
director, who is appointed by the President, with the advice and consent of the Senate, to a five-year term.

3
12 U.S.C. § 5491(b), (c). He may be removed by the President only for "inefficiency, neglect of duty, or malfeasance in office." Id. § 5491(c)(3).
The CFPB's structure is virtually unprecedented. To
date, "[n]o independent agency exercising substantial
executive authority" that has come before this Court
"has ever been headed by a single person." PHH Corp.
v. Consumer Fin. Prot. Bureau, 881 F.3d 7, 165 (D.C.
Cir. 2018) (en banc) (Kavanagh, J., dissenting) (emphasis
in original). As one member of this Court has noted, "the
Director of the CFPB possesses more unilateral authority—that is authority to take action on one's own, subject
to no check—than any single commissioner or board
member in any other independent agency in the U.S.
Government." Id. at 165-66. Indeed, "other than the
President, the Director enjoys more unilateral authority
than any other official in any of the three branches of the
U.S. Government." Id. at 166.
Not even the United States still maintains that such
a structure is constitutional. State Nat'l BIO at 13.2 And
with good reason: The Constitution forbids entrusting
concentrated, unchecked authority to a sole, unaccountable director of an administrative agency charged with
wielding executive power. This Court has permitted
multi-member commissions on the basis that such a
structure poses less of a threat to individual liberty than
See also En Banc Supplemental Brief of Defendant-Appellees
Federal Housing Finance Agency and Joseph M. Otting at 3,
Collins v. Mnuchin, No. 17-20364 (5th Cir. Jan. 14, 2019) (declining to defend Federal Housing Finance Authority
(FHFA)).

2

4
a single-headed commission. See, e.g., Humphrey's .Ex'r
v. United States, 295 U.S. 602, 629 (1935); see also 51
Cong. Rec. 10,376 (1914) (Federal Trade Commission
"would have precedents and traditions and a continuous
policy and would be free from the effect of . . . changing
incumbency."). An agency built around a sole director,
by contrast, is unchecked by the constraints of group decisionmaking among members appointed by different
presidents. PHH Corp., 881 F.3d at 166, 178 (Kavanaugh, J., dissenting) (citing SENATE COMMITTEE ON
GOVERNMENTAL AFFAIRS, STUDY ON FEDERAL REGULATIONS, S. Doc. No. 95-91, vol. 5, at 35 (1977)). A single
director thus "poses a far greater risk of arbitrary decisionmaking and abuse of power, and a far greater threat
to individual liberty, then a multimember independent
agency does." Id. at 166.
In this case, the CFPB brought that unchecked
power to bear on Seila Law to compel a private law firm
to participate in the investigation of potentially improper
marketing of debt-relief services. Pet. App. at 10a. It has
done so free from any executive oversight. The CFPB
had no power to undertake that investigation.
II. The Court should use this case to resolve the nagging question of whether Congress may assign responsibility for setting federal economic policy to a single individual who is not accountable to the President. Although
the CFPB has continued to defend its own constitutionality in lower courts, all parties agree that the "question
is important, and it warrants this Court's review in an
appropriate case." State Nat'l BIO at 9.
This is that appropriate case. The question is presented cleanly: If the CFPB's structure is constitutional,

5
Seila Law must provide the requested information. If the
CFPB's structure is not constitutional, the civil investigative demand is invalid, and Seila Law is under no such
obligation. During all stages of this litigation, the legality
of the CFPB has been vigorously argued by the parties
and squarely ruled upon by the courts. Though there is
no disagreement among the circuit courts at present,' delay will not assist this Court in its consideration of the
CFPB's constitutionality. The legal issues have been exhaustively examined; unanimity has been achieved only
because of a common misunderstanding of this Court's
prior precedent. Delay will serve only to prolong confusion over who sets policy in the multi-billion-dollar market in consumer financial products.
ARGUMENT
The CFPB has the power to "seek to implement and,
where applicable, enforce Federal consumer financial
law" as a means of ensuring that "all consumers have access to markets for consumer financial products and services" and that the markets for such products and services are "fair, transparent, and competitive." 12 U.S.C.
§ 5511(a). The CFPB may also prescribe rules imple-

In Collins v. Mnuchin, a panel of the Fifth Circuit held that
the FHFA, whose structure is substantively identical to the
CFPB, did not pass constitutional muster. 896 F.3d 640, 666
(5th Cir. 2018) (per curiam); see also id. at 677-78 (Stewart,
C.J., dissenting) (noting that "similar structure" between two
agencies made Collins and PHH indistinguishable). That opinion has been withdrawn pending en bane review. Collins v.
Mnuchin, 908 F.3d 151 (5th Cir. 2018).
3

6
menting consumer-protection laws; conduct investigations of market actors; and enforce consumer-protection
laws in administrative proceedings in federal court. See,
e.g., id. §§ 5511(c), 5562, 5563, 5564.
The Ninth Circuit followed the majority of a highly
fractured D.C. Circuit in upholding the CFPB's structure based on a flawed understanding of this Court's jurisprudence. The Court should grant certiorari and hold
that the Constitution does not permit Congress to consolidate such sweeping executive powers in an administrative agency headed by a sole director whom the President may remove only for cause.
I. The CFPB's Structure Violates the Constitution's Separation of Powers.
The Constitution vests "[t]he executive power" in the
President and compels him to "take care that the laws be
faithfully executed." U.S. Const. art. II, § 1, cl. 1; id. art.
II, § 3. Precedent provides that removal restrictions
such as those applicable to the CFPB are permissible
only for multi-member commissions—not for those
headed by a single director.
A. The President Must Retain the Power to Remove
at Will Individuals Who Wield Executive Power.
Article II bestows "[t]he executive power" in a single,
unitary executive. It makes "emphatically clear from
start to finish" that "the president would be personally
responsible for his branch." AKHIL REED AMAR, AMERICA'S CONSTITUTION: A BIOGRAPHY 197 (2005). The
Framers demanded "unity in the Federal Executive" to
guarantee "both vigor and accountability." Printz v.

7
United States, 521 U.S. 898, 922 (1997). This unitary executive further promotes "[d]ecision, activity, secre[c]y,
and d[i]spatch" in ways that a "greater number" cannot.
3 JOSEPH STORY, COMMENTARIES ON THE CONSTITUTION OF THE UNITED STATES § 1414, at 283 (1833).
Of course, as a practical matter, the President cannot
carry out the full scope of "the executive power" on his
own. This is why, "as part of his executive power," the
President "select[s] those who [are] to act for him under
his direction in the execution of the laws." Myers v.
United States, 272 U.S. 52, 117 (1926). Selecting assistants and deputies lies at the heart of "the executive
power," which necessarily includes "the power of appointing, overseeing, and controlling those who execute
the laws." Free Enter. Fund v. Public Co. Accounting
Oversight Bd., 561 U.S. 477, 492 (2010) (quoting 1 ANNALS OF CONG. 463 (1789) (Joseph Gales ed., 1834) (remarks of James Madison)).
The President's essential power to select administrative officials necessarily includes the power to "remov[e]
those for whom he cannot continue to be responsible."
Myers, 272 U.S. at 117; see also PHH Corp., 881 F.3d at
168 (Kavanaugh, J., dissenting) ("To supervise and direct executive officers, the President must be able to remove those officers at will."); Neomi Rao, Removal: Necessary and Sufficient for Presidential Control, 65 ALA.
L. REV. 1205, 1215 (2014) ("The text and structure of Article II provide the President with the power to control
subordinates within the executive branch.").
Since the Founding, it has been understood that the
removal power is necessary "to keep [executive] officers

8
accountable." Free Enter. Fund, 561 U.S. at 483. This
view "soon became the 'settled and well understood construction of the Constitution.'" Id. at 492 (quoting Ex
parte Hennen, 38 U.S. (13 Pet.) 230, 259 (1839)).
After all, if the President could not remove agents,
then a "subordinate could ignore the President's supervision and direction without fear, and the President could
do nothing about it." PHH Corp., 881 F.3d at 168 (Kavanaugh, J., dissenting) (citing Bowsher v. Synar, 478
U.S. 714, 726 (1986) ("Once an officer is appointed, it is
only the authority that can remove him . . . that he must
fear and, in the performance of his functions, obey."))
(quotation marks omitted). That, in turn, would intolerably impinge on the President's duty to execute the law.
Id. And it would upend the chain of command upon which
the Executive Branch relies to function properly. See
Free Enter. Fund, 561 U.S. at 513-14. Put simply, "[t]he
President cannot 'take Care that the Laws be faithfully
executed' if he cannot oversee the faithfulness of the officers who execute them." Id. at 484.
The Court recognized this common-sense understanding in Myers v. United States, when it struck down
as unconstitutional a statutory provision that restricted
the President's power to remove certain executive officers. 272 U.S. at 176. The Court held: "[W]hen the grant
of the executive power is enforced by the express mandate to take care that the laws be faithfully executed, it
emphasizes the necessity for including within the executive power as conferred the exclusive power of removal."
Id. at 122. If the President lacked the exclusive power of

9
removal, he could not "take care that the laws be faithfully executed." Id. at 164.
This Court has repeatedly reaffirmed the Myers rule
to the present day. It did so most recently in Free Enterprise Fund, reiterating that the President's executive
power "includes, as a general matter, the authority to remove those who assist him in carrying out his duties" to
faithfully execute the laws. 561 U.S. at 513-14. "Without
such power, the President could not be held fully accountable" for how executive power is exercised, and
"[s]uch diffusion of authority 'would greatly diminish the
intended and necessary responsibility of the chief magistrate himself." Id. at 514 (quoting THE FEDERALIST
No. 70, at 478 (Alexander Hamilton) (J. Cooke ed. 1961)).
B. Congress May Restrict the President's Removal
Power As to Independent, Multi-Headed Commissions.
There is only one narrow exception to the general
rule in Myers. In 1935, this Court held that Congress
could create "independent" agencies headed by commissions or boards whose members were not removable at
will and would operate free of the President's supervision and direction. Humphrey's Ex'r, 295 U.S. at 625,
631-32.
Humphrey's Executor concerned President Franklin
Roosevelt's dispute with a commissioner of the Federal
Trade Commission. President Roosevelt attempted to
fire the commissioner, but the commissioner contested
his removal, claiming that he was protected against firing by the FTC's for-cause removal provision. Id. at 621-

10
22. Before this Court, the Roosevelt Administration relied in "chief" on Myers and its articulation of the Article
II executive power. Id. at 626.
This Court rejected that argument and held that Article II did not forbid Congress to create an independent
agency "wholly disconnected from the executive department." Id. at 630. The Court deferred to the FTC's "nonpartisan" nature and its charge to "act with entire impartiality" while "exercis[ing] the trained judgment of a
body of experts appointed by law and informed by experience." Id. at 624 (quotation marks omitted). Where
those two features are present, this Court held, Congress may validly limit the President's power to remove
the commissioners. Id. at 628-30.
Predictably, following Humphrey's Executor, independent agencies came to populate all corners of the federal government. These agencies "play[] a significant
role in the U.S. Government" and "possess extraordinary
authority over vast swaths of American economic and social life—from securities to antitrust to telecommunications to labor to energy." PHH Corp., 881 F.3d at 170
(Kavanaugh, J., dissenting). Several of these agencies
impact the daily lives of countless Americans in significant ways, including the Federal Reserve Board, the
Federal Communications Commission, the Federal Deposit Insurance Corporation, the Securities and Exchange Commission, the National Labor Relations
Board, the Consumer Product Safety Commission, and
many others. Id. at 173.
Importantly, those independent agencies share the
two features recognized in Humphrey's Executor:

11
leadership comprised of multiple members who
are appointed at staggered terms. As this Court observed in Humphrey's Executor, the FTC had five members with staggered terms, and no more than three of
them could be of the same political party. 295 U.S. at 61920. The Court thus held that the Commission was a "body
of experts" deliberately "so arranged that the membership would not be subject to complete change at any one
time." See id. at 624. Those features have come to be regarded as the Humphrey's Executor exception to the
general rule announced in Myers. See, e.g., Wiener v.
United States, 357 U.S. 349, 355-56 (1958) (upholding the
removal provisions of the three-member War Claims
Commission); see also Free Enter. Fund, 561 U.S. at 483
("In Humphrey's Executor . . ., we held that Congress
can, under certain circumstances, create independent
agencies run by principal officers appointed by the President, whom the President may not remove at will but
only for good cause.").
There are two reasons why the Constitution may tolerate limits on the President's power to remove the
heads of independent agencies headed by multiple members serving staggered terms. First, "[i]n the absence of
Presidential control, the multi-member structure of independent agencies serves as a critical substitute check
on the excesses of any individual independent agency
head." PHH Corp., 881 F.3d at 183 (Kavanaugh, J., dissenting). That is, "Mlle multi-member structure thereby
helps to prevent arbitrary decisionmaking and abuse of
power, and to protect individual liberty." Id. That basic
structure makes it harder for the independent agency to

12
impinge on individual freedom. See id. It further discourages arbitrary, unsound agency actions driven by the
whims of one individual. Id. Each commissioner or board
member, in other words, acts as a check on the others
through the process of "deliberative decision making."
Kirti Datla & Richard Revesz, Deconstructing Independent Agencies (and Executive Agencies), 98 CoRNELL L. REV. 769, 794 (2013).
Second, multi-member independent agencies have a
historical tradition since Humphrey's Executor. PHH
Corp., 881 F.3d at 182-83 (Kavanaugh, J., dissenting); see
also id. at 178 (citing, e.g., Free Enter. Fund, 561 U.S. at
547 (Breyer, J., dissenting)). In "separation of powers
cases not resolved by the constitutional text alone, historical practice matters." Id. at 182-83. For example, in
National Labor Relations Board v. Noel Canning, this
Court relied on "Mang settled and established practice"
to reach "a proper interpretation of constitutional provisions regulating the relationship between Congress and
the President." 573 U.S. 513, 524 (2014) (quotation marks
omitted).
In sum, only independent agencies with several directors serving staggered terms can possibly fall within the
Humphrey's Executor exception to the Myers rule.
C. The CFPB's Structure Unconstitutionally Vests
Unchecked Power in a Single Director Removable Only for Cause.
As the United States has now conceded, this Court's
precedent makes clear "that the statutory restriction on
the President's authority to remove the Director [of the

13
CFPB] violates the constitutional separation of powers."
States Nat'l BIO at 13.
Unlike the multi-member boards approved in
Humphrey's Executor and its progeny, the CFPB is
headed by a single director. 12 U.S.C. § 5491(b). He
serves a term of five years and may be fired only for "inefficiency, neglect of duty, or malfeasance in office." Id.
§ 5491(c). And he wields "unmistakably executive responsibilities," including "criminal investigation and
prosecution." PHH Corp., 881 F.3d at 80 (majority op.).
The director wields that executive power over nineteen different federal consumer-protection statutes. 12
U.S.C. § 5512 (b)(1). He may examine and investigate individuals and entities to assess their compliance with
those statutes. Id. §§ 5514(b), 5515(b), 5516(c). He may
(as he did in this case) issue "civil investigative demand[s]." Id. § 5562(c). He may institute enforcement
actions and conduct "adjudication proceedings." Id.
§ 5563(a). And he may sue in state or federal court to enforce consumer-protection laws. Id. § 5564.
Those facts reveal the fundamental flaw in the Ninth
Circuit's conclusion that this case is "control[led by the]
standard enunciated in Morrison v. Olson." Pet. App. at
12a. As the Court explained in Free Enterprise Fund, it
"considered the status of inferior officers in Morrison,"
including whether Congress may limit an agency head's
ability to terminate an inferior officer at will. 561 U.S. at
494. The Court concluded that Congress may do so in
light of the inferior officer's "limited jurisdiction and tenure and lack[] [of] policymaking or significant administrative authority." Morrison, 487 U.S. at 691. But the

14
Court said nothing about whether Congress may also
limit the President's ability to remove a principal officer
who has "all but exclusive power to make and enforce
rules" under 19 federal statutes, PHH Corp., 881 F. 3d
at 153 (Henderson, J., dissenting), on topics "covering
everything from home finance to student loans to credit
cards to banking practices." Id. at 165 (Kavanaugh, J.,
dissenting); cf Free Enter. Fund, 561 U.S. at 494-95 (limiting Morrison to its facts).
Instead, the extent of the CFPB's ability to set and
enforce federal economic policy demonstrates why this
case is controlled by this Court's original Myers rule.
Myers provides that the President's subordinates must
be removable at will. Humphrey's Executor creates a
narrow exception for multi-director independent agencies with directors serving staggered terms. Because the
CFPB has a sole director, appointed for a term of five
years and removable only for cause, its structure violates
Article II by preventing the President from carrying out
the executive power.
II. This Case Is an Ideal Vehicle to Decide the
CFPB's Lawfulness.
This Court should grant review in this case to definitively resolve the persistent question of whether Congress may limit the President's ability to remove the sole
director of an agency empowered to set and enforce significant areas of federal policy. Review is warranted for
at least three reasons.
First, the legality of the CFPB presents a question of
vital importance that the parties agree can be resolved
only by this Court. As this Court has long recognized,

15
"[s]eparation of powers was designed to implement a
fundamental insight: Concentration of powers in the
hand of a single branch is a threat to liberty." Clinton v.
City of New York, 524 U.S. 417, 450 (1998) (Kennedy, J.,
concurring); see also, e.g., Morrison, 487 U.S. at 697
(Scalia, J., dissenting) ("No political truth is certainly of
greater intrinsic value, or is stamped with the authority
of more enlightened patrons of liberty." (quoting THE
FEDERALIST No. 47, at 301 (James Madison) (C. Rossiter ed. 1961))) (alterations omitted); Youngstown Sheet
& Tube Co. v. Sawyer, 343 U.S. 579, 634 (1952) (Jackson,
J., concurring) ("[T]he Constitution diffuses power the
better to secure liberty.").
The threat to liberty posed by the CFPB is uniquely
acute. In a supposed effort to protect consumers, the
Dodd-Frank Act deliberately stripped power that had
been spread across "seven different federal regulators"
as well as their state-law counterparts. See S. REP. 111176, at 10 (2010) (asserting a purpose to reduce "fragmentation" and supposed "regulatory arbitrage between
federal regulators and the [S]tates"); id. at 16-17 (discussing history of State regulation of areas relating to
consumer financial products). Rather than shift that
power to an existing Department overseen by a cabinet
Secretary, however, the Act concentrated that power in
the hands of a bureaucrat who need not seek the approval either of the electorate or an elected official.
The United States conceded last year that this concentration of power poses a threat to our constitutional
system and presents "an important [question] that warrants this Court's review in an appropriate case." State
Nat'l BIO at 10. Indeed, "although the Bureau itself has

16
continued to defend the constitutionality of its structure
in lower courts," even the CFPB "agrees" that the question "will ultimately need to be settled by this Court." Id.
Second, this is an "appropriate case" for the Court to
consider whether Congress may insulate huge swaths of
economic regulation from presidential accountability.
The prudential concerns and jurisdictional defects that
previously counseled against this Court's review are absent. See State Nat'l BIO at 10-12 (raising concerns regarding the Court's jurisdiction given status of particular petitioner and arguing that the Court should wait to
consider the question until nine Justices could participate). The question presented to this Court was also fully
briefed by the parties and squarely ruled upon by the
court below. Pet App. 2a-6a.
Moreover, the question is presented cleanly: Because
the CFPB's structure is unconstitutional, any action it
takes is necessarily invalid. In Free Enterprise Fund, after concluding that the Public Company Accounting
Oversight Board's structure was constitutionally impermissible, this Court declared that the challengers were
entitled to relief "sufficient to ensure that the reporting
requirements and auditing standards to which they are
subject will be enforced only by a constitutional agency
accountable to the Executive." 561 U.S. at 513 (citing
Bowsher, 478 U.S. at 727 n.5).
The outcome in this case should be the same. If the
CFPB is constitutional, Seila Law must provide information in response to the CFPB's civil investigative demand. If the CFPB is not constitutional, Seila Law is under no such obligation. Fed. Election Comm'n v. NRA
Political Victory Fund, 6 F.3d 821, 827-28 (D.C. Cir.

17
1993); accord Lucia v. Sec. & Exch. Comm'n, 138 S. Ct.
2044, 2055 (2018) ("This Court has held that 'one who
makes a timely challenge to the constitutional validity of
the appoint of an officer who adjudicates his case 'is entitled to relief." (quoting Ryder v. United States, 515 U.S.
177, 182 (1995)).
Third, any further delay in definitively resolving the
CFPB's legality will prolong a period of regulatory confusion without appreciable benefit .to this Court. Due to
its sprawling mandate, the CFPB interacts directly with
innumerable participants in American economic life from
law firms such as Petitioner to large financial institutions
to individual consumers. For example, in addition to its
rulemaking activity, the CFPB has received more than
1.5 million complaints and obtained more than $12 billion
in relief from enforcement actions during its lifespan.
CFPB, http://www.consumerfinance.gov/ (last updated
June 4, 2018). That number grows every day. See, e.g.,
Enforcement Actions, CFPB, https://www.consumerfinance.gov/policy-compliance/enforcement/actions/
(last visited July 23, 2019) (listing subset of enforcement
actions made public). These economic actors need to understand the rules of the road if the multi-billion-dollar
market in consumer financial products is to function.
Until this Court definitively decides whether the
CFPB has authority to set those rules, effective regulation of consumer financial products will be hampered
both at the federal and state levels. As discussed above
(at 13), the CFPB is the only federal entity with a current
statutory mandate to propound regulations and enforce
policy under nineteen separate federal statutes relating
to consumer financial products. Moreover, to the extent

18
that the CFPB has acted within the scope of a valid congressional mandate, its rules have preempted inconsistent state law. Cf., e.g., New York v. Fed. Energy Regulatory Comm'n, 535 U.S. 1, 17-18 (2002). Until this
Court determines whether the CFPB has any permissible statutory mandate, both regulators and the regulated
will remain uncertain regarding their scope of permissible action. Litigation will inevitably result.
At the same time, this is not a case where the Court
will appreciably benefit from further development of the
law in lower courts. As the Ninth Circuit correctly noted,
the arguments involved in this constitutional debate have
been "thoroughly canvassed" in hundreds of pages of
published opinions. Pet. App. 2a; see generally PHH, 881
F.3d at 75-200; Consumer Fin. Protection Bureau v. RD
Legal Funding, LLC, 332 F. Supp. 3d 729 (S.D.N.Y.
2018) (appeal pending); Collins, 896 F.3d at 640-93 (discussing FHFA) (en bane review pending). Even those
courts that have sided with the CFPB have acknowledged significant concerns about its structure, but they
have stated that they are bound by their (incorrect) understanding of this Court's prior precedent. See Pet.
App. 6a ("In short, we view Humphrey's Executor and
Morrison as controlling here. . . . The Supreme Court is
of course free to revisit those precedents, but we are
not."); PHH Corp., 881 F.3d at 113 (Tatel, J., concurring)
("PHH is free to ask the Supreme Court to revisit
Humphrey's Executor and Morrison, but that argument
has no truck in a circuit court of appeals."). It is extremely unlikely that any further circuit court ruling will
aid this Court's consideration of the issue.

19
This Court should grant review of this important constitutional issue now and hold that Congress may not insulate a principal officer with authority to set wide-ranging federal economic policies from presidential oversight.

[Remainder of page intentionally left blank.]

20
CONCLUSION
The petition for a writ of certiorari should be granted.
Respectfully submitted.
LESLIE RUTLEDGE
Attorney General of
Arkansas

KEN PAXTON
Attorney General of
Texas

CHRISTOPHER M. CARR
Attorney General of
Georgia

JEFFREY C. MATEER
First Assistant
Attorney General

CURTIS T. HILL, JR.
Attorney General of
Indiana

KYLE D. HAWKINS
Solicitor General
Counsel of Record

DEREK SCHMIDT
Attorney General of
Kansas
JEFF LANDRY
Attorney General of
Louisiana
DOUG PETERSON
Attorney General of
Nebraska

OFFICE OF THE
ATTORNEY GENERAL
P.O. Box 12548 (MC 059)
Austin, Texas 78711-2548
kyle.hawkins@oag.texas.gov
(512) 936-1700

21

MIKE HUNTER
Attorney General of
Oklahoma
ALAN WILSON
Attorney General of
South Carolina
HERBERT H. SLATERY III
Attorney General and Reporter,
State of Tennessee
SEAN REYES
Attorney General of
Utah
PATRICK MORRISEY
Attorney General of
West Virginia

JULY 2019

